No. _______

IN THE SUPREME COURT OF THE UNITED STATES

______________________________________________
DAVID ALLEN RUNDLE, Petitioner
vs.
RON DAVIS, WARDEN, Respondent
_____________________________________________

PETITION FOR A WRIT OF CERTIORARI
TO THE NINTH CIRCUIT COURT OF APPEALS

CAPITAL CASE

MARCIA A. MORRISSEY
11400 W. Olympic Blvd., Suite 1500
Los Angeles, California 90064
Telephone: 310-399-3259
Facsimile: 310-392-9029
Email: morrisseyma@aol.com
Attorney for Petitioner
DAVID ALLEN RUNDLE

CAPITAL CASE – NO EXECUTION DATE SET
QUESTIONS PRESENTED

1.

Was the state court’s summary denial of Petitioner’s claims that

defense counsels’ failure to present evidence corroborating his sexual abuse by his
mother, the psychological impairments caused by incest, and the relation between
Petitioner’s victimization by his mother and the crimes contrary to, or an
unreasonable application of, clearly established federal law as determined by this
Court or an unreasonable determination of the facts, within the meaning of 28
U.S.C. § 2254(d)?

2.

Was it unreasonable for the state court to conclude that, in light of the

aggravating circumstances in this case, there is no reasonable probability of a
different result if counsel had presented evidence corroborating Petitioner’s sexual
abuse by his mother, the psychological impairments he suffered because of incest,
and the relation between this abuse and the crimes?

-i-

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
There are no related cases pending in this Court.
INDEX TO APPENDICES1
APPENDIX A
Memorandum Decision, Rundle v. Davis, No. 16-99012 (9th Cir. July 25, 2019)
APPENDIX B
Order Denying Petition for Rehearing and Petition for Rehearing En Banc,
Rundle v. Davis, Case No. 16-99012 (9th Cir. July 25, 2019)
APPENDIX C
Relevant Portions of Findings and Recommendations of Magistrate Judge
Kendall J. Newman, Case No. 2:08-cv-01879 (United States District Court for
Eastern California, November 22, 2013)
APPENDIX D
Order Adopting Findings and Recommendations by Troy L. Nunley (United
States District Judge, Eastern District of California, September 12, 2016)
APPENDIX E
Opinion, People v. Rundle, 43 Cal.4th 76 (2008)

1

The appendices are filed concurrently under separate cover.

-ii-

APPENDIX F
Order, Rundle (David) on H.C., California Supreme Court No. S130722 (June
25, 2008).

-iii-

TABLE OF CONTENTS

PAGE

OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.. . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A.

Summary of Prosecution’s Guilt Phase Evidence. . . . . . . . . . . . . . . . . . . . 3

B.

Summary of Defense Guilt Phase Evidence.. . . . . . . . . . . . . . . . . . . . . . . . 4

C.

Summary of Prosecution Penalty Phase Evidence.. . . . . . . . . . . . . . . . . . 7

D.

Summary of Defense Penalty Phase Evidence. . . . . . . . . . . . . . . . . . . . . . 8

REASONS FOR GRANTING THE WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

II.

Trial Counsel Were Ineffective in Failing to Adequately Investigate
and Present Mitigating Evidence.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A.

Failure to Present Evidence to Corroborate Rundle’s
Sexual Abuse by his Mother. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

B.

Credible Evidence of Institutional Failure Was Not
Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

C.

Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

The Panel’s Prejudice Analysis Conflicts with This Court’s
Jurisprudence. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
A.

The Panel Failed to Meaningfully Engage with Mitigation
Not Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

B.

Presentation of Some Mitigation Does Not End the
Prejudice Inquiry.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

C.

The Compelling Relationship between Rundle’s Abuse
and the Crimes. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

-iv-

TABLE OF CONTENTS (Cont.)

PAGE

D.

The Explanatory Nature of Rundle’s History of Abuse. . . . . . . . . . . . . . 25

E.

The Testimony of Dr. Lyons and Dr. Thomas. . . . . . . . . . . . . . . . . . . . . . 27

F.

1.

Dr. Lyons. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

2.

Dr. Thomas. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Mental Health and Substance Abuse

28

CONCLUSION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

-v-

TABLE OF AUTHORITIES

PAGE

Andrews v. Davis,
944 F.3d 1092 (9th Cir. 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Caro v. Calderon,
165 F.3d 1223 (9th Cir. 1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18, 24
Kyles v. Whitley,
514 U.S. 419, 435 (1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Lockett v. Ohio,
430 U.S. 586 (1978). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Miller-El v. Cockrell,
537 U.S. 322 (2003). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Porter v. McCollum,
558 U.S. 30 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10-11, 20, 25
Rompilla v. Beard,
545 U.S. 374 (2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Sears v. Upton,
561 U.S. 945 (2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 27, 29
Skipper v. South Carolina,
476 U.S. 1 (1978). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Wiggins v. Smith,
539 U.S. 510 (2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 26
Williams v. Taylor,
529 U.S. 362 (2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 12, 19, 20, 28, 29
Wong v. Belmontes,
558 U.S. 15 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

-vi-

TABLE OF AUTHORITIES (Cont.)

PAGE

Zant v. Stephens,
462 U.S. 862 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

-vii-

No. _______

IN THE SUPREME COURT OF THE UNITED STATES

________________________________________________
DAVID ALLEN RUNDLE, Petitioner
vs.
RON DAVIS, WARDEN, Respondent
_________________________________________________
PETITION FOR A WRIT OF CERTIORARI TO THE
NINTH CIRCUIT COURT OF APPEALS

CAPITAL CASE
Petitioner David Allen Rundle respectfully prays that a writ of certiorari
issue to review the decision of the United States Court of Appeals for the Ninth
Circuit filed on July 25, 2019.
OPINIONS BELOW
The memorandum decision of the Ninth Circuit Court of Appeals appears as
Appendix (“App.”) A to this petition; the decision is unpublished. Relevant portions
of the opinion of the United States District Court, which is unpublished, appear in
App. C and App. D. The opinion of the California Supreme Court on direct appeal is

-1-

in App. E and is reported at 43 Cal.4th 76 (2008). The state court denial of habeas
relief appears at App. F and is unpublished.
JURISDICTION
The Ninth Circuit judgment was entered on July 25, 2019. App. A. A timely
petition for rehearing and rehearing en banc was denied on June 10, 2020. App. B.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment
“In all criminal prosecutions, the accused shall enjoy the right . . . to have the
Assistance of Counsel for his defense.”
Eighth Amendment
“Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.”
Fourteenth Amendment Due Process Clauses
“No state . . . shall . . . deprive any person of life, liberty, or property, without
due process of law.”
28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in custody
pursuant to a judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim –
(1)

resulted in a decision that was contrary to, or involved an

-2-

unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2)

resulted in a decision that was based on an unreasonable application of
the facts in light of the evidence presented in the State court
proceedings.”
STATEMENT OF THE CASE

A.

Summary of Prosecution’s Guilt Phase Evidence

Carrie Garcia (“Garcia”) was last seen when Petitioner picked her up to drive
her to the bus station. The next day, her clothing was found on the side of the
freeway, but her body was not located. Over two months later, Petitioner was
arrested and admitted he had intercourse with Garcia and strangled her. When
asked if intercourse was against Garcia’s will, he did not respond. Petitioner drew a
map that allowed authorities to locate her body. They found her wrists tied behind
her back. The cause of her death could not be determined due to decomposition.
Two months after Garcia was last seen, Lanciann Sorensen (“Sorensen”)
telephoned her mother and said she was waiting for a ride home. She later called
her boyfriend and said she was hitchhiking home with “David;” she admitted to
drinking and smoking marijuana and sounded drunk. Three days later, Sorensen’s
mother reported her missing. Her body was found one month later, with her wrists
tied behind her back. Due to decomposition, the cause of her death could not be
determined. Petitioner confessed to killing Sorensen. He said they had been
talking and smoking marijuana, when he became angry because he started thinking

-3-

about his family and inability to see his child. Sorensen reacted by “freaking out,”
which further enraged him. When he put his hands on her shoulders, she swung at
him, and he “just blew up.” He did not remember much after that and did not know
why he killed her. He admitted having sex with Sorensen, but could not say
whether it was before or after she was killed.
B.

Summary of Defense Guilt Phase Evidence

Ron Ballard, Jeffrey Miner and Scott Greger testified that Petitioner’s
mother, Jane, exposed herself to them by flashing her bare breasts as they passed
her house. Greger and Ballard testified that if Jane caught their eye, she would do a
little “shake and jiggle” for them.
Phillip Bodily, who lived next to the Rundles when he was thirteen to fifteen
years old, testified that Jane Rundle twice made sexual advances to him. She
would go out of her way to show him she was not wearing panties, would sit too
close to him, rub against him and ask him questions about sex. He observed Jane
having sex with a teenaged neighbor, Ron Kinney. Once, Kinney asked him to go to
the Rundle home, and when they arrived Jane took them to the master bedroom,
where Jane orally copulated Kinney and they had sexual intercourse; they asked
Bodily to join them and teased him when he declined. Ron Kinney also teased
Petitioner about his mother’s behavior, calling her a tramp, a whore and other
names.
James and Sara Jo Ennis, the Rundles’ neighbors, described Jane standing
nude at the back door to her home and she went into the backyard with her blouse

-4-

open while the trains were switching tracks behind the residence.
Petitioner told Dr. Richard Yarvis, a psychiatrist, that from the age of seven
or eight until his teens, his mother had engaged in sex acts with him; that she was
promiscuous and overtly sexually provocative with him and others; that his
childhood was chaotic and unfriendly; and that his father was often away from
home and physically abusive. According to Yarvis, boys are more likely to become
psychotic because of incestuous relationships with their mothers than are girls
abused by their fathers. Either type of incest is disastrous, its victims often
experience severe guilt, anxiety and tremendous anger, and it is very unlikely that
the victim of mother-son incest would grow up to be psychologically normal.
However, he testified that Petitioner was not psychotic, but had a “short fuse”
reaction to unwanted physical contact and became visibly nervous if someone got
too close to him. Yarvis observed Petitioner have an extreme reaction after
accidentally falling; he became instantly agitated, angry and visibly distressed, and
Yarvis feared he was close to becoming unglued and perhaps violent. Petitioner
also told him that his mother was an exhibitionist, which Yarvis deemed unusual
behavior for a woman; he said that exhibitionists are relatively harmless and
infrequently commit more active sex offenses.
Petitioner testified in his defense. He said that his mother first molested him
when he was nine or ten years old and physically immature; she woke him and
dragged him to her bedroom where she undressed him and forced him to engage in
sex acts. Thereafter, his mother frequently molested him. She would make him rub

-5-

her breasts and vagina with his hands and penis, perform oral sex on her and she
performed oral sex on Petitioner. He did what he was told, but was scared, angry
and experienced no pleasure or sexual gratification. Jane frequently committed
sexual assaults on Petitioner over the years, including intercourse. As Petitioner
matured, he would experience anger, frustration and, at times, pleasure, which
confused him because he knew it was wrong. He could not stop his mother and if he
told his father, “he would probably kill me.” Eventually, Petitioner stayed away
from home as much as he could and finally his mother stopped molesting him. His
absence from home angered his father, but at least his mother left him alone.
After leaving home, Petitioner traveled around the country for a time, but he
returned to Colfax, California, where his family was living, when he was 21. He
was not welcome at home so he mostly lived in his car. He wanted to put down
roots in Colfax, but his parents did not want him to stay. In addition, people were
confronting him about his mother “flashing” and the rumors his family was
spreading about him. This made it hard to establish himself in Colfax and his
family situation weighed heavily on him.
Jane Rundle testified that she did not remember Ron Kinney and was not
sexually intimate with anyone but her husband. She denied exposing herself to
anyone. There was a railroad track behind one of their houses, but she never
exposed herself to passing trains, boarded trains, or had sex with crew members.
She denied having sexual relations with Petitioner. She described him as a liar and
said he had lied for most of his life.

-6-

C.

Summary of Prosecution Penalty Phase Evidence

At penalty phase, the prosecution presented evidence about the homicide of
Elizabeth Lactawen in Sacramento five months before Garcia was killed and
Petitioner’s confession that he killed her. He said he and Lactawen were smoking
pot and talking, and started to have consensual sex. Something she said made him
angry and he just flipped out. When Ms. Lactawen’s body was found, her arms were
tied behind her with an electrical cord.
Petitioner told detectives that the killings started because of “troubles” at
home, his inability to get close to his family, their repeated rejections of him, and
his drug use.
There was evidence that Petitioner sexually assaulted six-year-old Ms. Young
when he was fourteen years old. He was arrested and confessed, saying he said he
did not know what came over him. That same year, Petitioner forced Brian Minner
and Cori Howe, ages twelve and eleven, respectively, to orally copulate him.
Randi Rundle, who was married to Petitioner for two years, testified that he
struck her “many times,” and recounted forced sodomy and oral sex, but did not
have a clear memory of the number of incidents or exactly what occurred.
Psychiatrist Dr. Lyons interviewed Petitioner for one hour, at the request of
the prosecutor, to evaluate his mental status. Petitioner admitted the offenses
against Ms. Young, Brian Minner and Cori Howe, and spoke of his repeated
rejection by his family and his rages, which he described as times when he could not
control himself. Petitioner was upset and pleading for psychiatric help; Lyons felt

-7-

sorry for him and prescribed Navane, which he described as a “heavy duty”
tranquilizer. Lyons found no evidence of active psychosis, and diagnosed a
personality disorder.
D.

Summary of Defense Penalty Phase Evidence

Richard Thomas, Ph.D., was initially called by the prosecution, but his
testimony was ruled inadmissible. Defense counsel then called Thomas out of order
as their witness. Thomas testified that he saw Petitioner as a result of the
incidents involving Ms. Young, Minner and Howe that ultimately resulted in his
commitment to St. Anthony’s youth facility. He had a single session alone with
Petitioner, because he decided there was a family communication problem and
included Petitioner’s parents in the sessions. Petitioner refused to talk about what
happened, and his mother reinforced his behavior. Thomas saw a high potential for
Petitioner to act out; his refusal to talk about what happened meant that it was just
a matter of time before someone else was violated. Thomas testified that Petitioner
enjoyed inflicting pain, had a great deal of rage and that neither this rage nor
Petitioner’s way of dealing with it was normal. Jane told Thomas she was sexually
molested as a child and thought there was a relation between her molestation and
her son’s acts, but Thomas assured her that there was no such relationship. Yet
Thomas acknowledged that perpetrators of sexual abuse were themselves sexually
abused as children ninety percent of the time. Thomas testified Petitioner was not
mentally ill. He diagnosed Petitioner as having an explosive personality character
disorder that at the time of trial was called antisocial personality.

-8-

Petitioner’s maternal uncle, George Russell, recalled him as young boy full of
the wonder of life. His wife, Bonnie, described Petitioner as a bright, alert child full
of promise and potential. Both testified that Jane subjected Petitioner to constant
verbal abuse, never acted motherly, and never encouraged or praised him. The only
kindness she showed Petitioner was when she ignored him. George once saw Jane
go after her husband with a butcher knife, and said she routinely threatened others
and frequently threatened to beat Petitioner until he could not walk. When
Petitioner was no more than twelve to eighteen months old, George noticed
suspicious chafing of his penis, which he suspected was from improper sexual
touching. When Jane was confronted, she denied responsibility in such a mild way
that he did not believe it was sincere. George testified that Jane was not truthful
and he had seen her lie all his life. George favored the death penalty, but believed
that Petitioner was also a victim and it would be murder to kill him.
Sherry Couzens, an instructor at Placer Union High School, tutored
Petitioner while he was in jail once a week for four months so he could obtain his
GED. She described him as a quiet, focused person who paid attention to detail,
was quite thorough on assignments and an overall good student.
Placer County Sheriff’s Sergeant Roloff worked at the jail where Petitioner
was housed. Petitioner assisted deputies in locating a shank that an inmate
planned to use in an escape attempt. Petitioner asked for nothing in exchange; he
simply did not want to see anyone get hurt.
Petitioner worked at Norval and Mayday Griffin’s machine shop for six

-9-

months in 1985. He was a hard-working, trustworthy and conscientious employee
who did a good job. When Petitioner separated from his wife, the Griffins let him
live in an old camper shell behind their shop and he caused no problems. Petitioner
said he did not have a good relationship with his family and they did not treat him
fairly. Mr. and Mrs. Kile owned a mailing service where Petitioner worked for 18
months. He was an excellent, trustworthy, reliable and hard-working employee
who got along well with his co-workers. David Luce owned a restaurant in Colfax;
Petitioner worked there and also helped Luce around his home. He was hardworking, trusted, put in long hours, unsupervised, and was one of only a few
employees Luce trusted enough to work at his house when he was not home.
Deborah Peters testified Petitioner worked as a carpet layer with her husband and
lived at their house for one month before he was arrested. She described him as a
very nice person who helped around the house and got along well with her children,
and she was stunned when she learned he had been arrested for murder.
REASONS FOR GRANTING THE WRIT
This case is deserving of this Court’s consideration because the Ninth
Circuit’s decision that the state court was not unreasonable in summarily denying
Petitioner’s ineffective assistance of counsel claims conflicts with the Court’s
holdings regarding the analysis required under Strickland v. Washington, 466 U.S.
668 (1984). See, e.g., Williams v. Taylor, 529 U.S. 362 (2000); Wiggins v. Smith, 539
U.S. 510 (2000); Rompilla v. Beard, 545 U.S. 374 (2005), and Porter v. McCollum,

-10-

558 U.S. 30 (2009). It is a significant case to capital habeas petitioners because the
Ninth Circuit has equated “deference” to state court decisions under the
Antiterrorism and Effective Death Penalty Act with “abandonment or abdication of
judicial review,” contrary to Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).
I.

Trial Counsel Were Ineffective in Failing to Adequately Investigate
and Present Mitigating Evidence
The evidence that trial counsel failed to investigate and present to the jury

that sentenced Petitioner to death was compelling. Much of this evidence was
known to counsel or readily available had there been an adequate investigation of
evidence in mitigation.
Trial counsel were given a detailed memorandum prepared by Barthel &
Wechter, a firm hired to conduct a mitigation investigation, that specified issues
that needed to be addressed, including the following:
•

Petitioner’s “very flat emotional affect” suggests a childhood so painful
that he defends himself against feelings by refusing to feel at all;

•

Petitioner’s substance abuse must be documented;

•

Much of Petitioner’s life history will have to be told by others due to
his poor memory;

•

Petitioner may have been suffering psychotic episodes, blackouts,
psychedelic distortions of perception and other significant disorders at
the time of the crimes;

•

A profile of Petitioner’s family must be compiled by interviewing

-11-

neighbors, friends, relatives and social and community workers;
•

Petitioner’s teenage molestation of children was “evidence of [his]
own sexual victimization and disturbance;”

•

Petitioner’s sexual abuse by his mother must be buttressed by
unbiased witnesses from his childhood and adolescence;

•

An “expert in child sexual abuse and its consequences” is needed to
analyze information obtained and “focus this area of the investigation.”

Trial counsel knew that a “complete and thorough preparation of the case for
a penalty phase is absolutely essential.” Barthel & Wechter provided a blueprint for
their investigation. However, counsel failed to conduct a complete and thorough
penalty investigation. As demonstrated below, the mitigating evidence that the
jury did not hear may might well have influenced the jury’s appraisal of Rundle’s
moral culpability and “put the whole case in such a different light as to undermine
confidence in the verdict.” Kyles v. Whitley, 514 U.S. 419, 435 (1995); Williams v.
Taylor, 529 U.S. at 398.
A.

Failure to Present Evidence to Corroborate Rundle’s Sexual
Abuse by his Mother

Adequate investigation would have presented the jury with credible evidence
corroborating Rundle’s testimony that he was the victim of years of violent sexual
abuse by his own mother. If interviewed, Mike Goodwin would have testified that
Rundle “confided in me that his mother had sexually molested him for many years,
beginning when he was a young child and continuing until he was about 14.” Sadly,

-12-

Mike, age 20 at the time, “really didn’t know what to say, or what advice to give
him.” Janet Thornal, the ex-wife of Rundle’s brother Donald, would have testified
about seeing “family meetings” in the Rundle home, which Donald said involved
“abuse.” Thornal would have further testified that Rundle’s youngest brother,
Danny, exposed his penis and asked if she wanted to play with it; when she
declined, he said “[m]y mama likes to.”
Petitioner’s friend, Albert Irving, could have described Jane’s inappropriate
sexuality and request that he have sex with her when he was 15. Irving has stated
that he always thought that Petitioner was sexually abused by his mother because
of the way that she related to her son and “the fact that she came on to me and [his]
other friends.” Phillip Bodily, who testified at trial, was not asked about Jane’s
efforts to get Petitioner to have his friends over for sleep-overs and “[w]hen he did,
she’d spend the whole night up with them, trying to get one of them alone with her.”
Had counsel followed the advice of their mitigation investigator to consult
with a qualified expert, such as Dr. David Lisak, the jury would have heard that:
Mother-son incest is widely regarded as one of the most damaging
forms of sexual abuse imaginable . . . . [T]here is no one in a child’s life
who can have as much impact on its development [as its mother]. [¶]
Therefore, there is no form of abuse that can be as damaging as that
inflicted by a mother on her own child . . . . Abuse by a mother is
internalized by the child . . . the child inevitably ends up feeling that it
is unlovable and worse, that it is intrinsically bad and the cause of the
abusive and cruel treatment . . . . [T]he child experiences deep anger at
the cruel and abusive mother . . . [and] that anger creates an
intolerable condition for the child . . . . The child keeps the anger out of
consciousness for as long as possible [to] . . . protect[] its own illusion
that its mother is a source of love and protection.

-13-

According to the Ninth Circuit, the jury heard “Rundle’s strongest mitigating
evidence, the most significant of which was . . . testimony that his mother, Jane
Rundle (“Jane”), sexually abused him throughout his childhood and into his teenage
years.” App. A, p. 6. However, counsels’ ineffectiveness was the failure to
corroborate Rundle’s guilt phase testimony by readily available evidence, because
the only evidence that Rundle was an incest victim was his testimony. The panel
did not address the fact that, as one would expect, Rundle’s credibility was viciously
attacked at trial. His own mother, who was called as a defense witness, denied
molesting her son and told the jury he was a liar. The prosecutor argued that he
was “a profuse and inveterate liar,” who made “the most ridiculous accusations of
what [his mother] did to him as he grew up . . . [and] lied extensively about what
[she] may have done to him,” and that his testimony was a “diversionary tactic” to
blame his mother.”
The panel’s statement that Jane’s violent incestuous abuse of her son was
corroborated by the testimony of Rundle’s Uncle George and Dr. Yarvis (App. A, p.
6) is an unreasonable determination of fact. Uncle George’s testimony about seeing
chafing on Rundle’s penis when he was an infant and suspicion of sexual abuse does
not corroborate Rundle’s six-year nightmare of relentless and devastating
incestuous abuse. Nor did Dr. Yarvis corroborate Rundle’s testimony about his
mother’s abuse. As stated by the district court, “without a better mental health
expert who could explain to the jury how all of the problems petitioner encountered

-14-

in his young life would lead to significant mental issues, it is difficult to conceive
that counsel’s conduct could be considered objectively reasonable.” App. C, at 124.
Yarvis testified as “an expert in general terms and not with any specificity to Mr.
Rundle’s case.” He was ill-equipped to address mother-son incest and its sequelae
because he had not studied the subject2 and was unaware of the significant body of
scholarship on the subject.3 Yarvis has since stated that his testimony failed to
inform the jury “about [Rundle’s] psychological status” or “put his criminal behavior
in the context of that psychological status.” The trial judge confirmed Yarvis’ failure
to corroborate the abuse Petitioner suffered, stating that: “[Yarvis] has not
expressed any opinion on whether the defendant is suffering from any effect of any
incestuous relationship, not one word. He’s not been asked that question.”
Trial counsel failed to call an expert qualified to explain the psychological
impact of Petitioner’s sexual abuse by his mother. Dr. Jay Jackman, a psychiatrist,
identified critical factors that shaped Petitioner’s psychological development, all of
which were relevant to mitigate his crimes: (a) severe trauma resulting from the
long-term incestuous relationship forced upon him by his mother; (b) trauma from
being hanged by his mother’s teenage lover in her presence; (c) anxiety, depression
and substance abuse associated with trauma; (d) pain and confusion resulting from

2

Although Yarvis had some expertise in pedophilia, he was not an expert on the
effects of maternal incest, the long term impact of which is far-reaching and affecting many aspects
of development beyond sexuality.
3
At the time of Rundle’s trial there were published books and journal articles that
specifically dealt with male victims of sexual abuse.

-15-

his family’s cruel, rejecting attitude toward him; (e) his mother’s extremely
disturbed sexual behavior with other men; (f) his father’s violence; (g) the isolated
and emotionally neglectful atmosphere in which he was raised; and (h) the lack of
appropriate, effective intervention by mental health and social service agencies.
B.

Credible Evidence of Institutional Failure Was Not Presented

There was compelling evidence that juvenile institutions failed to identify
Rundle as a victim of sexual abuse and to intervene, evidence that “might serve ‘as
a basis for a sentence less than death.’” Skipper v. South Carolina, 476 U.S. 1, 4-5
(1978) (quoting Lockett v. Ohio, 430 U.S. 586, 604 (1978)).
Jane’s aberrant behavior was first recognized in 1968 at a Head Start
program, where participants witnessed “vicious rages,” described her as a “monster”
when she disciplined Petitioner and as someone with a “Jekyll and Hyde”
personality. Head Start teacher Hazel Scott could have testified that whenever
Jane came close to Petitioner he “appeared uncomfortable with her company and
would physically push her away from him.” This behavior was so “odd” and unlike
the other children that Scott “remember[s] it distinctly to this day.” When Scott
read about the allegations that Jane molested Petitioner, she “finally understood”
his behavior as a child. Another Head Start teacher, Ms. Goodwin, has stated that
“whatever David became as a young adult was because of his mother.” When she
heard about his arrest, “the first thing [she] said was that they should hang is
mother, not him, because “Jane was so uncontrollable and unpredictable that she

-16-

seemed crazy, like there was something seriously wrong with her.”
Signs that Petitioner was the victim of sexual abuse were seen in elementary
and middle school, where both his strange behavior and his rejection by his family
were recognized, but never addressed. When Petitioner was sent to St. Anthony’s
after the Young, Minner and Howe incidents, his school counselor, Kenneth Wrenn,
who suspected he was a victim of sexual abuse, wrote to St. Anthony’s reporting his
suspicion and urging appropriate treatment, but to no avail. Despite this warning,
the facility failed to address Petitioner’s “underlying problems of anger and
sexuality as they relate to his family.” A St. Anthony staff psychiatrist, Dr. Ackley,
has admitted that the facility failed to address Petitioner’s anger and sexuality as
they related to his family. Counselor Edlefsen would have testified that Petitioner’s
deep-seated issues with his mother were not addressed at St. Anthony’s and that
Petitioner did not want to return to his family at the conclusion of the program.
Program Director Kendall would have testified that St. Anthony’s did not know how
to treat victims of sexual abuse.4
The panel excused counsels’ failure to present evidence of institutional
failure because “the jurors heard testimony that allowed them to draw the inference
that Rundle’s treatment at St. Anthony’s . . . had not resolved his deeply-rooted
issues.” App. A, at 8. The panel fails to cite any evidence that would allow this
inference to be drawn, because none exists. And, a conclusion that lay jurors were

4

Trial counsel had this information, but did not present it to the jury.

-17-

capable of inferring mitigating evidence from Rundle’s time at St. Anthony’s is
contrary to Ninth Circuit precedent. Caro v. Calderon, 165 F.3d 1223, 1227 (9th Cir.
1998). The panel’s further statement that calling witnesses regarding St. Anthony’s
“like Dr. Kenneth Wrenn” would have led to the introduction of additional
aggravating evidence, i.e., Wrenn’s report that Rundle liked to show off his penis at
school and was once seen masturbating (App. A, at 9) is untrue. First, Wrenn was
not even at St. Anthony’s – he was a school counselor who advised the facility of his
suspicion that Rundle had been sexually abused. Second, as set forth above, there
were a number of witnesses other than Wrenn who could have testified about St.
Anthony’s failures. Third, when put in context, the behavior described by Wrenn
would not have been aggravating but would have provided a striking example of
how his mother’s abuse profoundly damaged Rundle.
C.

Conclusion

The district court correctly found that “counsel presented little evidence to
show [ ] abuse” and “[t]here is no question that counsel could have obtained more
information about petitioner than was presented during the penalty phase.” App. C,
at 124. The contrary findings by the Ninth Circuit jettison decades of this Court’s
jurisprudence as to the obligation to investigate evidence in mitigation in a capital
case.

-18-

II.

The Panel’s Prejudice Analysis Conflicts with This Court’s
Jurisprudence
A.

The Panel Failed to Meaningfully Engage with Mitigation Not
Presented

Contrary to this Court’s precedent, the panel failed to re-weigh the evidence
in aggravation against the totality of mitigating evidence. See, e.g., Williams v.
Taylor, 529 U.S. at 395. There was no meaningful discussion of the mitigating
evidence not presented; instead, the panel focused on the crimes and concluded that
no amount of mitigation could have outweighed what Rundle did. See App. A at 4
(“[t]he aggravating evidence presented to the jury was simply overwhelming”); ibid.
(citing Rundle’s guilt phase testimony in discussing the “overwhelming”
aggravating evidence);5 id., at 8 (“[a]dditional testimony about [Rundle’s] mental
health and drug use would not have made a difference in the penalty phase given
the horrific nature of his crimes”); id., at 9 (it is not likely that Dr. Lyons’ testimony
that petitioner had a defect in his conscience, was immoral and suffered from rage
attacks “tipped the scales with respect to the death sentence, in light of the severe
aggravating evidence”); id., at 9 (referring to Rundle’s “repeated horrific conduct”);
ibid. (Rundle “was amoral, had a defect in his conscience, and was subject to rage
attacks – in light of the nature of his repeated horrific conduct.”); id., at 9-10 (Dr.

5

The inclusion of Rundle’s guilt phase testimony as an example of the “simply
overwhelming” aggravating evidence is significant. Trial counsel’s ineffective representation meant
that Rundle’s testimony about his mother’s sexual abuse was the linchpin of the guilt and penalty
defenses. Without corroboration by lay and expert witnesses, the “defense” became evidence in
aggravation.

-19-

Thomas’ testimony that Rundle had explosive personality disorder and it was a
matter of time before someone was violated again, “was not so significant that its
omission would have led to a reasonable probability of a different outcome . . . . In
light of this aggravating evidence the jury could infer that it was only a matter of
time until Rundle violated someone again.”).
The panel’s opinion contravenes this Court’s authority that a strong case in
aggravation does not preclude a finding that a state court was unreasonable in
denying habeas relief. Williams v. Taylor, 529 U.S. at 369; Porter v. McCollum,
558 U.S. at 31. This Court has instructed that a “reviewing court must consider all
evidence – the good and the bad – when evaluating prejudice.” Wong v. Belmontes,
558 U.S. 15, 26 (2009). The panel did not engage is such a review.
B.

Presentation of Some Mitigation Does Not End the Prejudice
Inquiry

The panel’s reliance on the fact that some mitigating evidence was presented
(App. A, at 6-7), does not end the discussion. This Court has instructed that “[w]e
have never held that counsel’s effort to present some mitigation evidence should
foreclose an inquiry into whether a facially deficient mitigation investigation might
have prejudiced the defendant.” Sears v. Upton, 561 U.S. 945, 955 (2010) (emphasis
in original). The meager “hard worker” evidence that the jury heard pales in
comparison to the substantial and powerful explanatory mitigation that was not
presented.
The panel’s finding that much of the mitigating evidence developed by post-

-20-

conviction counsel “was presented in some fashion” (App. A, p. 7) is an unreasonable
determination of fact. The district court noted that trial counsel “presented little
evidence to show[] abuse.” App. C, at 124. Yarvis’ testimony that Rundle’s father,
David, Sr. (“Senior”), “tended to be physically abusive” (App. A, p. 7), fails to convey
the nature and degree of the abuse Rundle suffered. The jury did not hear that
Senior’s punishment involved closed-fist beatings. They did not hear Senior admit
that “he treated [Rundle] very badly, screaming at him and physically beating him
on numerous occasions.” Nor did the jury hear that Rundle was beaten with willow
switches every night for two weeks as a punishment for a minor transgression and
was beaten when he incorrectly answered a homework question. Jurors did not
hear from Shannon Cooke, who described Senior as a “very domineering man” who
“intimidated his children.” She remembers “the family dog was so afraid of [Senior]
that it peed whenever [he] came into the room.” Once, she saw a “very angry”
Senior “beat [Rundle] very badly.” Rahn Carter would have testified that Senior
“roughed [his son] up,” and he saw Rundle “with welts and marks on his face” like
“he had been beaten.” The jury did not hear Janet Thornal’s description of Rundle’s
ostracization by his family: when Rundle was at home, his mother and brothers
would tell him that he had to leave before Senior returned because he would be very
angry if he found Rundle in the house.
The jury did not hear that of all the Rundle children, Petitioner was singled
out for abuse. Phillip Bodily remembers Jane’s punitive and unnatural treatment
of her son:

-21-

Jane was really insulting and belittling to David in front
of his friends. She would call him “dummy” or “clumsy” or
“stupid.” . . . I always thought that the way she messed
with him psychologically was way harder on him than the
whoopings he got from her. A whooping, you take it and
then it is over. The psychological stuff stays with you in
your head and can keep bothering you for a long time.
Nor did the jury hear that Jane and her teenage lover, Ron Kinney, routinely
teamed up to mercilessly abuse Petitioner. They demeaned and belittled him and
the “teasing” at times became physical.
Dr. Jackman, or any qualified mental health expert, could have testified that
the physical and emotional abuse Petitioner suffered “is a pattern of behavior that
can seriously interfere with a child’s positive development and can be the cruelest
and most destructive of all types of abuse . . . . Children who are constantly
shamed, humiliated, terrorized or rejected suffer at least as much, if not more, than
if they had been physically assaulted. The jury did not hear that the “[d]amage
from the sexual abuse by his mother and physical abuse by his father was
exacerbated by the neglect and ostracism from his family that David experienced
throughout his life” or that “[t]he humiliation and shame David endured in the
community as a result of Jane’s aberrant sexuality was another form of emotional
abuse.”
The panel excuses counsels’ failure to present the testimony of Jack Denman,
who advised trial counsel that Jane’s abuse taught Rundle to associate sex with
physical abuse, terror and rage, because he “might have brought in additional
aggravating evidence, like Rundle’s alleged sexual ignorance when he failed in

-22-

attempt to rape a woman when he was fourteen because he ‘didn’t know what to
do,” which “could have undercut Rundle’s strongest mitigating evidence – that
Rundle had been raped by his mother throughout his childhood.” App. A, at 8.
First, this misrepresents the record. The facts are: Rundle was on his bike; a
woman walked towards a car; he told her to get in the car; once inside, he “didn’t do
anything. I didn’t know what to do, so we just sat there. I got out, hopped on my
bike and pedaled home.” Second, thinking about rape, when neither physical
contact nor threat occurred, was not evidence that undercut incest. Third, there
was already evidence before the jury that Rundle “knew what to do” when, at
fourteen, he committed sexual offenses against Young, Minner and Howe. Fourth,
Denman was the sole source of this account, so the statement that witnesses “like
Jack Denman” would have opened the door for rebuttal is without merit.
C.

The Compelling Relationship between Rundle’s Abuse and the
Crimes

There was powerful mitigating evidence of intergenerational sexual abuse
that the jury did not hear. Evidence that Jane was the victim of long-term sexual
abuse by her father, Billy Joe Russell (“Billy Joe”), was not presented to the jury.
Billy Joe began to sexually abuse Jane in 1958, when she was twelve. The incest
continued until April 1962, when Jane’s mother informed police that Jane was
being sexually harassed by neighborhood boys. During the subsequent
investigation, Jane admitted having sex with groups of boys and boys individually.
A juvenile petition was filed alleging that she “is in danger of leading an immoral

-23-

life.” In court proceedings, Jane revealed years of sexual abuse by her father. A
probation report described her as “functioning at the dull normal level;” having a
“serious disturbance in the sexual area;” showing “no emotion or guilt;” having no
appreciation of “the seriousness of her involvement in this type of behavior;” and
not understanding that “she has a problem to resolve.” The petition was sustained
and Jane was committed to Napa State Hospital for observation.
Billy Joe was prosecuted for incest and admitted having intercourse with
Jane “on numerous occasions” because his wife was “very frigid” and “what is a man
supposed to do . . . .” He was adjudicated a sexual psychopath, committed to
Atascadero State Hospital for observation and subsequently sentenced to jail and
probation.6
The panel dismisses the failure to present this evidence because there were
“others” who corroborated Jane’s “horrible treatment of Rundle” and therefore the
jury could “draw inferences” and “connect the dots on their own.” App. A, at 7.
First, the conclusion that lay jurors were capable of inferring the existence of
mitigating mental impairments from “horrible treatment” is contrary to Ninth
Circuit precedent. Caro v. Calderon, 165 F.3d at 1227. Second, the evidence cited
by the panel as permitting “inference drawing” and “dot connection” does not

6

Counsel had Jane’s juvenile court records and the records of Billy Joe’s prosecution
for incest. During the guilt phase, the prosecutor successfully argued the records were irrelevant
because there was no evidence that Jane’s victimization made it more likely she would molest her
son. Counsel did not seek to introduce these records at penalty phase because he believed it would
not be allowed given the previous ruling. However, the relevance of the records was established by
penalty phase testimony that ninety percent of perpetrators of sexual abuse were sexually abused as
children.

-24-

accomplish this end. Although the panel writes that Dr. Yarvis explained the
“horrible psychological impact caused by maternal incest” (App. A, at 7-8), this is
simply not correct. Yarvis testified that boys are more likely to become psychotic
because of maternal incestuous relationships, but, in the next breath, said that
Rundle was not psychotic.7 Clearly, Yarvis’ testimony that incest is “disastrous” did
not specifically relate to Rundle. At best, Yarvis said that Petitioner was that he
was not “psychologically normal” in that he had a “short fuse” reaction to unwanted
physical contact. Even worse, he gave the jury an example of a “short fuse” reaction
by Rundle that made him fear Petitioner was “very close to becoming unglued and,
perhaps, even violent.” Yarvis did not establish the relationship between maternal
incest and the crimes Rundle committed. On the contrary, he informed the jury
that Rundle was a volatile person who posed a danger to others, which is in no way
mitigating.
D.

The Explanatory Nature of Rundle’s History of Abuse

Entirely absent from the panel’s decision is discussion about the explanatory
nature of the mitigating evidence the jury did not hear. See Porter v. McCollum,
558 U.S. at 43 (“It is unreasonable to discount to irrelevance the evidence of Porter’s
abusive childhood, especially when that kind of history may have particular
salience for a jury evaluating Porter’s behavior in his relationship with Williams.”);
7

An example of counsel’s ineffective performance as to Lyons is the failure to impeach
his opinion that Rundle was not psychotic by: Lyons’ report that Rundle described auditory
hallucinations; the jail psychiatrist who observed symptoms of severe psychiatric disorder consistent
with diagnoses of schizophrenia, bipolar disorder or drug induced psychosis; and medical records
documenting Rundle’s response to antipsychotic medication in jail.

-25-

Wiggins v. Smith, 539 U.S. at 534-35 (evidence that counsel failed to present of
“repeated rape during [defendant’s] . . . years in foster care” was “powerful”
mitigating evidence); Andrews v. Davis, 944 F.3d 1092, 1117 (9th Cir. 2019)
(“Evidence of abuse inflicted as a child is especially mitigating, and its omission is
thus particularly prejudicial.”).
The sexual abuse Rundle suffered is related to the crimes for which he was
tried and convicted. Jane’s incestuous assaults on her son were strongly tinted with
psychological torment and aggression. An expert could have testified that the often
violent nature of Jane’s abuse – forcible rape, forced oral copulation, slapping,
twisting his arms, pulling his hair – taught Petitioner to associate sex with physical
abuse, and with terror and rage. In this case, where the victims had their hands
tied behind their backs, it was clearly significant that Jane once raped Petitioner
after tying his hands behind his back.
Rundle’s sexual abuse undeniably cast his crimes in a different light. He
endured years of maternal rape and abuse committed with impunity. Without
information about the severely damaging effect of maternal incest, Rundle’s
physical and mental abuse by his family, and the relationship of that abuse to the
crimes, the jurors could not impose a sentence “on a case-by-case basis according to
an individualized assessment of the defendant’s characteristics and the
circumstances of the crime.” Zant v. Stephens, 462 U.S. 862, 879 (1983).

-26-

E.

The Testimony of Dr. Lyons and Dr. Thomas
1.

Dr. Lyons

Trial counsel were ineffective in failing to move to exclude or limit the
testimony of Dr. Lyons, whose only contact with Rundle was a one-hour evaluation
requested by the prosecution so he could evaluate Rundle’s present mental state.
Lyons testified that Rundle did not tell him about his mother’s sexual abuse, that
he confessed to the crimes, and that Rundle did not exhibit any “active psychoses.”
He diagnosed Rundle with a “mixed character disorder” or “explosive personality”
and described him as angry, egocentric, lacking in capacity for empathy with other
people, having a defect in his conscience and amoral. The panel stated that “[e]ven
if the defense was successful in excluding those statements by Dr. Lyons, the jurors
had more than sufficient evidence to reach the same conclusions about Rundle –
that he was amoral, had a defect in his conscience, and was subject to rage attacks
in light of the nature of his repeated horrific crimes.” App. A, at 9. The panel’s
dismissal of mitigation evidence by a characterization of Rundle as beyond
redemption is not the “probing and fact-specific analysis” of evidence required for a
prejudice analysis under this Court’s precedent. Sears v. Upton, 561 U.S. at 955.
2.

Dr. Thomas

Rundle’s counsel were ineffective in (1) not moving to exclude Dr. Thomas’
testimony before the prosecutor’s opening statement; (2) improvidently calling
Thomas as a defense witness; (3) not objecting to his testimony about Rundle’s

-27-

character; and (4) failing to impeach his misstatements. The district court, in
finding “trial counsel unreasonably failed to investigate and present testimony from
a mental health expert at the penalty phase” and stating “[i]t is difficult to imagine
the basis for counsels’ decision to put on the testimony of Dr. Thomas.” App. C, at
136. The panel, while admitting that Thomas’ testimony “was not helpful,” found
no prejudice because Rundle “assaulted three children, went on to beat and sexually
assault his wife, and then sexually assaulted and murdered three women” and “the
jury could infer that it was only a matter of time until Rundle violated someone
again.” App. A, at 9-10. The court thus created a categorical bar to a finding of
prejudice in a case deemed to be “horrific.” As discussed above, this is inconsistent
with Sears v. Upton, 651 U.S. at 955, and conflicts with precedent stating that a
strong case in aggravation does not preclude a finding that a state court denial of
habeas relief was unreasonable. Williams v. Taylor, 529 U.S. at 369.
F.

Mental Health and Substance Abuse

The panel concluded that “[a]dditional testimony about [Rundle’s] mental
health and drug use would not have made a difference at penalty phase given the
horrific nature of his crimes.” App. A, p. 8. This is a misunderstanding of function
of mitigation. See Williams v. Taylor, 529 U.S. at 398 (“Mitigating evidence
unrelated to dangerousness may alter the jury’s selection of penalty, even if it does
not undermine or rebut the prosecution’s death-eligibility case.”). Moreover, as
discussed above, deeming a crime “horrific” does not end the analysis of prejudice.

-28-

Sears v. Upton, 561 U.S. at 955; Williams v. Taylor, 529 U.S. at 369.
CONCLUSION
For the reasons expressed above, Petitioner respectfully requests that a writ
of certiorari issue to review the decision of the Ninth Circuit Court of Appeals.

Dated: September 1, 2020

Respectfully submitted,
/s/ Marcia A. Morrissey
MARCIA A. MORRISSEY
Attorney for Petitioner-Appellant
DAVID A. RUNDLE

-29-

